                         United States
            CONSUMER PRODUCT SAFETY COMMISSION
                     Washington, DC 20814


                  OFFICE OF INSPECTOR GENERAL




Follow-Up Review of the Consumer Product Safety Commission’s Laboratory
                         Accreditation Program




                           24 September 2012
                    TABLE OF CONTENTS/ABBREVIATIONS
Executive Summary                                                             1
Background                                                                    1
Management’s Response                                                         2
Findings                                                                      3
Appendix I: Objective, Scope, and Methodology                                 11




ABBREVIATIONS
CIGIE        Council of Inspectors General on Integrity and Efficiency
CPSC         Consumer Product Safety Commission
CPSIA        Consumer Product Safety Improvement Act
EXIP         Office of International Programs and Intergovernmental Affairs
GAGAS        Generally Accepted Government Audit Standards
ILAC         International Laboratory Accreditation Cooperation
ISO          International Organization for Standardization
OIG          Office of Inspector General
                                    EXECUTIVE SUMMARY

On August 14, 2008, the “Consumer Product Safety Improvement Act of 2008” (CPSIA) was
signed into law. The CPSIA constituted a comprehensive overhaul of consumer product safety
rules, and significantly impacted nearly all children’s products entering the United States market.

In relevant part, the CPSIA imposed a third-party testing requirement on all consumer products
primarily intended for children twelve years of age or younger. Every manufacturer (including
an importer) or private labeler of a children’s product must have its product tested by an
accredited independent testing laboratory and, based on the testing, must issue a certificate that
the product meets all applicable Consumer Product Safety Commission (CPSC) requirements.
The CPSC was given the authority to either directly accredit third party conformity assessment
bodies (hereafter referred to as “third party laboratories”) to do the required testing of children’s
products or to designate independent accrediting organizations to accredit the testing
laboratories. The CPSC is required to maintain an up-to-date list of accredited labs on its web
site. The CPSC has authority to suspend or terminate a laboratory’s accreditation in appropriate
circumstances and is required to periodically assess whether or not laboratories should continue
to be accredited. The third-party testing and certification requirements for children’s products
are phased in on a rolling schedule. The statute requires the CPSC to issue laboratory
accreditation regimes for a variety of different categories of children’s products.

Inspector General Review: The CPSIA also requires that the CPSC Office of Inspector
General (OIG) conduct reviews of the adequacy of the procedures the CPSC has established for
accrediting conformity assessment bodies and overseeing the third party testing required by the
CPSIA (henceforth this program will be referred to as “laboratory accreditation”). 1 This report
summarizes the results of the first two of those reviews.

The original review conducted focused on two specific areas. First, it evaluated if internal
controls were adequately designed and properly executed in the management of the laboratory
accreditation program. Second, it assesses the CPSC’s compliance with the the CPSIA in its
operation of its conformity assessment program. The review found that although the agency had
done a remarkable job in many respects of implementing its new responsibilities under the
CPSIA there was still room for improvement in a number of areas.

This year’s review follows-up on last year’s to ensure that the corrective actions management
indicated they were going to be taken were in fact taken. This review was completed in
accordance with the Quality Standards for Inspections issued by the Council of Inspectors
General on Integrity and Efficiency’s (CIGIE) Inspection and Evaluation Committee and not the
Generally Accepted Government Audit Standards (GAGAS) standards issued by the
Government Accountability Office.

Background: The CPSC quickly determined that it lacked the necessary infrastructure to
directly accredit the testing laboratories. So, in order to leverage its available resources, the
CPSC decided to utilize an independent accrediting organization to accredit the testing
laboratories. The requirements for CPSC recognition include that the laboratory be accredited by
1
    As authorized by section 14(a)(3) of the Consumer Product Safety Act (CPSA)
                                                                                                        1
a laboratory accreditation body that is a signatory to the International Laboratory Accreditation
Cooperation (ILAC) Mutual Recognition Arrangement (MRA); the laboratory scope of
accreditation must include the test methods required by CPSC laws and regulations; and the
laboratory must apply to the CPSC for recognition and must agree to fulfill the requirements of
the CPSC program.

In implementing the CPSIA in general and the laboratory accreditation program in specific the
CPSC faced challenges created by both the requirement that it promulgate rules within
mandatory timelines and the complex scientific, technical, and procedural issues surrounding
said rules. For example, the first in the series of rules dealing with laboratory accreditation (not
a subject traditionally within CPSC jurisdiction) needed to be promulgated within 30 days of the
enactment of the CPSIA.

The CPSIA expanded both the authority and the responsibilities of the CPSC. Prior to the
passage of the CPSIA the agency had never participated in the accreditation of laboratories,
much less been faced with the daunting task of developing a program to accredit laboratories and
oversee their testing of certain consumer products. The CPSIA established an aggressive
regulatory agenda and set deadlines to ensure that results were achieved in a timely fashion. The
aggressiveness of the CPSIA has had both positive and negative effects on the agency. It has
spurred on a greater degree of regulatory activity than would have existed without the passage of
the act. At the same time, it established implementation timelines that required the CPSC to
move at a pace that the agency has not always been able to accommodate.

Results in Brief of the Original Review: The OIG found that although CPSC management had
done a remarkable job of creating a laboratory accreditation program out of whole cloth, at the
time field work was being done, there were areas of the program that could be improved. In
particular, perhaps because of the rate at which the program was created, written policies and
procedures were often lacking, certain aspects of the review process appear to be subjective, and
internal control design was weak in some aspects of the program’s management. The agency
began taking aggressive measures to address a number of the findings detailed in that report even
before the report was issued.

Results in Brief of the Current Review: The follow-up review found that prior to the current
review corrective actions had been taken on all seven recommendations in the original review
report. Recommendations one through five had been fully implemented prior to the
commencement of this review and should be considered closed. Recommendations six and
seven are ongoing recommendations and not subject to being closed. During the course of this
review, with the exception of the two “ongoing” recommendations, management took steps to
close out all the remaining recommendations and bring the CPSC into compliance with federal
and agency regulations.

Management Response: CPSC management agreed with all of the findings made in this
review.




                                                                                                    2
                                       RESULTS OF THE REVIEW

Prior Finding 1. No Published Methodology or Detailed Criteria had been Developed for
the Evaluation of Government Labs

We found that there was neither a published methodology nor a detailed criteria established for
the evaluation of government labs. The criteria for evaluating third-party and firewalled labs
was spelled out fairly clearly and available to the public at the CPSC web site. However, no
such criteria had been published for government controlled labs and it appeared that no such
criteria existed, at least in a written form. 2 3

As a result of the lack of visible criteria, the evaluation of government labs may appear
subjective. This may increase the chances that an unsuccessful applicant could successfully
challenge the agency’s decision as arbitrary and capricious.

Beyond the issue of appearance, the methodology and criteria used for evaluating government-
controlled labs was in fact more subjective than the methodology and criteria used to evaluate
third-party and firewalled labs. It was determined that at the time of fieldwork no detailed
written procedures were in place to standardize the way evaluations of government labs were
conducted. Laboratories in one country were asked to respond to a different set of questions than
laboratories in another country. These procedures may well have a reasonable and rationale
basis, but it is not one that had been committed to writing. A review of the physical application
files determined that they contained a variety of documents with little consistency from
application package to application package.

General guidance set out in a memo from the Office of International Programs and
Intergovernmental Affairs (EXIP) to the Commission dated March 19, 2009 stated, "The number
of attestations will depend on the specific case. For example, a single attestation from a senior
ministry official might be sufficient in cases where the lab is operated directly by that ministry.
A joint venture would likely require attestations from the company operating the lab and from
their related government entity."

This might well be good and appropriate general policy guidance, but the agency needs to
develop specific guidance on how this policy will be applied to specific cases.

Clearly, some degree of professional judgment will need to be exercised in the evaluation
process and a “one size fits all” approach would be counterproductive. However, there should be
written criteria documenting the process used and the process itself should be regularized and
made as objective as possible. For example, if the CPSC is going to rely on information
provided by employees of other Federal agencies, the relationship between the CPSC and those
agencies should be formalized in writing.

2
  The CPSIA establishes the underlying criteria to be evaluated (the existence of “undue influence” etc), but not how
that evaluation should take place (independent investigation, information provided by other Federal agencies, etc).
3
  Since the completion of field work the agency has made improvements in this area including developing a standard
set of questions and requests for documentation that it uses for all governmental lab applicants. See “Response”
below.

                                                                                                                   3
Prior Recommendation: Develop a baseline or minimum set of documents and requirements
that government labs must meet to be accredited. Beyond that, continue to use the current multi-
person panel to evaluate applications to minimize subjectivity.

Prior Agency Response: As a result of the OIG’s early informal recommendations, the agency
has developed a standard set of questions and requests for documentation that it uses for all
governmental lab applicants. These standard requests are being published. Requests for
information from U.S. missions abroad also have a standard form. All applicants are reviewed
using a standardized review document that provides grounds and reasoning for a finding relative
to each of the five criteria for governmental labs set forth in the statute. All EXIP staff are being
trained in the standard procedures. EXIP does not agree that the relationship between CPSC and
other federal agencies providing assistance should be formalized in writing. Other agencies are
under no obligation to assist us in our analysis of an applicant and there is no evidence that a
formal relationship would result in better information than we currently receive. Feedback from
our Embassies and Consulates to date has been extremely helpful. Creating a formal relationship
with multiple agencies would, however, create a new demand on our own scarce agency
resources and could result in the creation of new bureaucratic procedures without clear benefits.

Actions Taken by Management to Implement Recommendation: The CPSC has developed a
standard set of questions and requests for documentation that it uses for all governmental lab
applicants. Requests for information from U.S. missions abroad also now utilize standard
language. All applicants are reviewed using a standardized review document that provides
grounds and reasoning for a finding relative to each of the five criteria for governmental labs set
forth in the statute. The agency reports that all EXIP staff have been trained in the standard
procedures, but that this training is not formally documented. Recommendation Closed

Prior Finding 2. No Policies or Procedures have been Developed to Audit Third Party
Laboratories as a Condition for their Continuing Accreditation

The agency does not have written policies or procedures in place for auditing third party
laboratories as a condition for their continuing accreditation.

The CPSIA required that no later than 10 months after the date of enactment of the CPSIA, the
CPSC should by regulation establish requirements for the periodic audit of third party
laboratories as a condition for the continuing accreditation of such bodies. This requirement was
to have been completed by June of 2009.

The CPSC does not yet have written withdrawal policies or procedure in place to audit third
party laboratories.

As a result, the CPSC has no way of verifying whether or not the third party laboratories that it
has accredited in the past are currently complying with the accreditation requirements.

Prior Recommendation: The CPSC should develop and implement written policies and
procedures for the audit of third party laboratories.


                                                                                                    4
Prior Agency Response: The CPSC did publish a proposed rule to implement the audit
provision in the CPSIA (74 FR 40784 (August 13, 2009)). The final rule is in progress and must
be coordinated with a proposed rule that would address third party conformity assessment body
requirements, including suspension and withdrawal of accreditation.

Actions Taken by Management to Implement Recommendation: The agency has published a
proposed rule to formally establish policies and procedures for the audit of third party
laboratories. This proposed rule, 16 CFR Part 1112 was published on May 24, 2012.
Recommendation Closed


Prior Finding 3. Inadequate Monitoring of Certification Expiration Dates

The CPSC lacks documented procedures for monitoring laboratory certification expiration dates.
We also observed that whatever “ad hoc” monitoring was taking place was failing to identify
laboratories with expired certificates. Our review of the database found seven laboratory
certificates that had expired and 16 laboratories that had certificates without expiration dates.

In accordance with section 102(e)(1)(B) of the CPSIA the CPSC may withdraw its accreditation
or its acceptance of the accreditation of a third party laboratory if the CPSC finds such laboratory
failed to comply with an applicable protocol, standard, or requirement established by the CPSC.

However, the CPSC does not have written procedures to monitor for expired certifications or
certificate renewals and instead conducts the checks - which are not documented or recorded - on
an ad hoc basis. As a result, the agency failed to identify those laboratories which were out of
compliance with applicable protocols due to their certification having expired. Additionally,
files were found in which laboratories had been accredited despite failing to provide expiration
dates for their certification. These problems were not detected by the agency.

The lack of documented procedures for monitoring certificate expiration dates increases the risk
of a laboratory continuing to be recognized by the CPSC incorrectly. As of the end of field work
for this review, the list of accredited laboratories on the CPSC website was not reconciled
with the accreditation database.

Prior Recommendation: The CPSC should develop and implement procedures for monitoring
certification/certificate renewals and detecting expired certifications on a regular basis and
maintain records of these reviews. Laboratories with expired certifications should be
removed from the accredited laboratory list maintained electronically by the CPSC.

Prior Agency Response: Accreditation bodies across the world have somewhat different
conventions on the issuance of an expiration date. These different conventions are within the
allowable framework established by the ISO standards and by ILAC, so long as the accreditation
body is complying with its designated reassessment schedule for a laboratory. In all cases, the
laboratory maintains its accreditation unless there is a formal notice from an accreditation body
that a laboratory’s accreditation is suspended or withdrawn. The CPSC application process

                                                                                                  5
collects certificate expiration dates for information purposes (for those labs that are issued
expiration dates). However, there has not been a case where the absence of an expiration date or
the passing of an expiration date has indicated a suspension of accreditation by the accreditation
body. While a certificate expiration date may be useful in certain circumstances to trigger a
CPSC follow-up with the laboratory, it has been determined that this should not be a stand-alone
criteria for the CPSC to remove a laboratory from the “CPSC-accepted” list.
The most important factor is that a laboratory has not been formally issued a “suspension or
withdraw” by its accreditation body, and therefore is still in good standing with its accreditation
body.

Actions Taken by Management to Implement Recommendation: The CPSC has developed
an internal standardized operating procedure for both monitoring certification/certificate
renewals and detecting expired certifications on a regular basis. They also now maintain records
of these reviews. A standardized policy has also been developed for removing laboratories with
expired certifications from the CPSC maintained accredited laboratory list after it has have been
confirmed that they have had their accreditation suspended or removed by their accreditation
body. Recommendation Closed

Prior Finding 4. No Written Withdrawal Policies or Procedures for Removing a Third
Party Laboratory’s Certification

The agency does not have written withdrawal policies or procedures in place for withdrawing
a third party laboratory's certification.

The CPSIA contemplates two situations which may lead to the withdrawal of a third party
laboratory’s certification. In accordance with CPSIA, Section 102(e)(1)(A), the CPSC may
withdraw its accreditation or its acceptance of the accreditation of a third party laboratory if the
CPSC finds a manufacturer, private labeler, or governmental entity has exerted undue influence
on such conformity assessment body or otherwise interfered with or compromised the integrity
of the testing process with respect to the certification of a children’s product. CPSIA, Section
102(e)(1)(B) states that the CPSC may withdraw its accreditation or its acceptance of the
accreditation of a third party laboratory if the CPSC finds such laboratory failed to comply with
an applicable protocol, standard, or requirement established by the CPSC.

The CPSC does not have written withdrawal policies or procedure in place to implement either
CPSIA, Section 102(e)(1)(A) or (B).

As a result, the withdrawal process is not standardized and runs the risk of not being applied
uniformly. Any effort by the agency to withdraw accreditation would run the risk of being found
to be arbitrary and capricious by a court if challenged. In addition, it is unclear when and how
the CPSC will decide to withdraw its recognition or acceptance of a third party laboratory's
accreditation.

Prior Recommendation: The CPSC should develop and implement written policies and
procedures for the withdrawing of a third party laboratory's certification.



                                                                                                       6
Prior Management Response: The CPSC is developing a proposed rule that would address
third party conformity assessment body requirements, including suspension and withdrawal of
accreditation.

Actions Taken by Management to Implement Recommendation: The agency has published a
proposed rule to formally establish policies and procedures for the withdrawing of a third party
laboratory's certification. This proposed rule, 16 CFR Part 1112 was published on May 24,
2012. Recommendation Closed

Prior Finding 5. No Written Policies or Procedures for Reviewing the Employee Training
Records Contained in Firewalled Laboratory Accreditation Application Packages

In addition to the baseline accreditation requirements, firewalled laboratories must submit to the
CPSC copies, in English, of their training documents. These documents should demonstrate that
their employees have been trained that they may notify the CPSC immediately and confidentially
of any attempt by the manufacturer, private labeler, or other interested party to hide or exert
undue influence over the third party laboratories’ test results. This additional requirement
applies to any third party laboratory in which a manufacturer or private labeler of a children’s
product to be tested by the third party laboratory owns an interest of ten percent or more in the
laboratory in question.

During our fieldwork we noted that the CPSC was not consistent in applying its standards
regarding minimum laboratory employee training requirements and attendance records to its
review of Firewall Laboratory Application packages.

No written policy or procedure exists on how to implement the above described requirements.
During field work we observed that there was little standardization or uniformity in the
evaluation process. As a result, there is a lack of consistent enforcement or implementation of
application requirements. For example, not all application packages contained the actual
signatures of the employees who allegedly attended the training. The lack of employees’
signatures on the training attendance list increases the difficulty of establishing if the listed
attendees actually received the training in question.

The management of the Firewalled laboratories are required to provide an ethics phone list to
their employees, to allow them to report undue influence, and to indicate that they have done so
in their application packages. However, upon review of these packages, some application
packages contained copies of the phone list while others did not. Specifically, of eleven (11)
firewall applications received by CPSC, seven (7) applications (64%) did not include an ethics
phone list as part of the package. As a result, the phone list's existence, much less whether or not
it had in fact been provided to the employees, could not be validated.

Prior Recommendation: Develop and implement written policies and procedures that
describe what constitutes acceptable training documents and related minimum requirements for
Firewalled laboratory application packages.




                                                                                                    7
Prior Management Response: All points in Finding 5 are currently in development and will be
presented to the Commission for its consideration in a proposed rule and policies and procedures.

Actions Taken by Management to Implement Recommendation: The agency has published a
proposed rule, 16 CFR Part 1112, to formalize the requirement that conformity assessment
bodies that apply for CPSC approval as firewalled laboratories must submit to the Commission
copies of their training documents, showing how employees are trained to notify the Commission
immediately and confidentially of any attempt by the manufacturer, private labeler, or other
interested party to hide or exert undue influence over the third party conformity assessment
body's test results. This proposed rule also contains descriptions of what constitutes acceptable
training documents. Recommendation Closed

Prior Finding 6: The CPSC Failed to Meet a Number of Accreditation Timeline
Requirements

The CPSIA and related regulations created a number of timeline requirements for the
establishment of accreditation requirements. The accreditation requirements for baby bouncers,
walkers and jumpers were to be established not later than 210 days after enactment of the
CPSIA (i.e. March 12, 2009). All other current CPSC children’s product safety rules were to be
created not later than 10 months after enactment of the CPSIA (i.e. June 14, 2009). The CPSIA
also
required that the CPSC establish by regulation requirements for the periodic audit of third party
laboratories as a condition for the continuing accreditation of such bodies. This requirement was
supposed to be met not later than 10 months after the date of enactment of the CPSIA.

The CPSC did not publish federal register notices of accreditation requirements for baby
bouncers, walkers, and jumpers by March 2009 as required by the CPSIA timeline.

Of the five classes of children's products specifically mentioned in the CPSIA regulation, four of
the classes successfully met the timeline requirements and only one class (baby bouncers,
walkers, and jumpers) was not posted before the required timeline expired. The rule for infant
walkers was posted to the Federal Register in June 2010, 15 months after the CPSIA timeline
required.

The following product classes had laboratory accreditation requirements which the CPSC did not
post until after the August 2009 deadline set out in the CPSIA.

           •   Infant bath seats - 11 months late
           •   Clacker balls - 8 months late
           •   Electrically operated toys - 8 months late
           •   Vinyl plastic film - 11 months late
           •   Carpets and rugs - 11 months late
           •   Small carpets and rugs - 11 months late

There does not appear to have been a single overarching reason for the agency’s not meeting
timelines requirements set out in the CPSIA. In some cases (baby bouncers, walkers, and

                                                                                                 8
jumpers) staff has indicated that they desired to produce a “better” rule than had currently existed
and chose to place quality over timeliness. In other cases (audit of third party laboratories) staff
indicated that the project was simply viewed as having a low priority when considered against
the other requirements that needed to be met.

Prior Recommendation: Increase the emphasis on meeting Congressional mandates.
Prior Management Response: The CPSIA represents the most substantial change in consumer
product safety since the creation of the Agency in 1973. Since August 2008, CPSC staff has
worked diligently to implement the CPSIA through rulemaking, enforcement, and other safety
standard activities. In 2010 we have completed over 30 rules or other documents required by the
CPSIA. The number of completed assignments required by the CPSIA, however, is only a
partial accounting of Commission staff’s actual workload. For example, in some cases, a
statutory requirement under the CPSIA triggered additional work and the need for the
Commission staff to issue a proposed rule (before it could issue the CPSIA required final rule),
an interpretive rule, a statement of policy, or a guidance document. These other rules and
documents constitute an additional 50 items completed since August 2008 (20 items completed
in 2009, 30 items completed in 2010). We also held numerous public briefings to help
stakeholders understand their obligations under the law, created a special Web site devoted to
CPSIA, and responded to thousands of inquiries from affected manufacturers, retailers, resellers,
and consumers.

At the same time the CPSC was working on the implementation of the CPSIA it was called upon
to deal with two other challenges. Staff resources had to be reallocated to work on the unplanned
and unbudgeted drywall problem and in December 2008, the Virginia Graeme Baker Pool and
Spa Safety Act (Pool and Spa Safety Act) became effective. In working to implement the Pool
and Spa Safety Act CPSC staff participated in Webinars, held meetings, and disseminated
information on the Pool and Spa Safety Act to all pool and spa owners, operators, technicians,
manufacturers, state and local health officials, and other organizations concerned with children’s
safety and drowning. CPSC staff inspected over 1,200 public pools and spas in 38 states for
compliance with drain cover requirements of the Act. We also entered into a partnership with the
Centers for Disease Control to provide states in 2010 with enforcement grants and funded a
major information campaign to begin in 2010.
The CPSC did not publish a notice of requirements pertaining to walkers, bouncers, and jumpers
in 2009 because, at the time, staff intended to revoke the regulation (see “Revocation of
Regulation Banning Certain Baby-Walkers and Similar Products,” 74 FR 45714 (September 3,
2009)) and issue a new standard for walkers. However, after publication of the proposed rule to
revoke the regulation, CPSC staff reconsidered their position and elected to revoke only those
aspects of the rule pertaining to walkers. The issuance of a final rule establishing a new standard
for walkers was accompanied by a notice of requirements for walkers (“Third Party Testing for
Certain Children’s Products; Infant Walkers; Requirements for Accreditation of Third Party
Conformity Assessment Bodies,” 75 FR 35282 (June 21, 2010)), and CPSC staff intends to issue
a notice of requirements pertaining to bouncers and jumpers when it develops final standards for
those products.




                                                                                                  9
Actions Taken by Management to Implement Recommendation: The overall pace at which
the agency has issued notice of requirements and met other mandates has accelerated since the
passage of the CPSIA. FY 11 saw over 13 notices of requirement issued by the CPSC become
effective, to include those relating to infant walkers and final rules formalizing the
implementation of many of the CPSIA’s requirements have recently been implemented.
Ongoing

Prior Finding 7. Assurance ILAC Standards Conform to CPSIA Standards

At the time fieldwork was conducted, the CPSC was relying nearly exclusively on ILAC to
ensure that the laboratories accredited by the CPSC actually conform to CPSIA standards.

Although the CPSIA (Section 102(a)(1)(3)(C)) does permit the CPSC to accredit third party
laboratories directly or through an independent accreditation organization, we still have concerns
regarding whether or not the CPSC adequately demonstrated and documented that ILAC
standards/test methods conform to CPSIA standards prior to the agency opting to use ILAC as
the independent accreditation organization.

Based on our findings it appears that, due to a tight deadline and other resource constraints, the
CPSC may be relying too heavily on ILAC’s accreditation when determining whether or not to
accredit laboratories as being CPSIA compliant.

Prior Recommendation: Consider conducting field visits/onsite inspections or some other
monitoring mechanism to verify the validity and quality standards of third party laboratories.
Perform these visits on a random basis or when other concerns arise to help limit reliance on the
ILAC certification.

Prior Management Response: The IG recommendation to conduct field visits/onsite
inspections to “limit reliance on the ILAC certification” is noted and considered an appropriate
action for CPSC to take, as circumstances dictate.

Actions Taken by Management to Implement Recommendation: The CPSC has begun
conducting site visits at accredited laboratories to “limit reliance on the ILAC certification.”
However, the ability of the CPSC to carry out such visits on a large scale is severely limited by
the resources available. To date, there has been no formal documentation of or guidance issued
on conducting these site visits. Ongoing




                                                                                                     10
                                   APPENDIX I
                      OBJECTIVE, SCOPE, AND METHODOLOGY

Objective
The objectives of this review included evaluating if internal controls were adequately designed
and properly executed in the management of the laboratory accreditation program and
determining if the CPSC complied with the terms of the relevant portions of the CPSIA in its
operation of its conformity assessment program.

Scope
OIG conducted fieldwork to determine if the CPSC had developed and published requirements
for the accreditation of third party laboratories on specified children products, CPSIA mandates,
CPSC requirements for meeting accreditation, implemented the proper level of internal controls
to accredit third party laboratories and oversee third party testing requirements from May –
September 2012.

Methodology
This review was completed in accordance with the Quality Standards for Inspections issued by
the Council of Inspectors General on Integrity and Efficiency’s (CIGIE) Inspection and
Evaluation Committee and not the GAGAS standards issued by the GAO. Fieldwork included
interviewing personnel responsible for formulating and publishing the accreditation
requirements, reviewing documentation, reviewing the database and recordkeeping, and
documenting findings in the work papers and draft/final review report.




                                                                                                  11
